  Report No. D-2009-099                 August 12, 2009




Afghanistan Security Forces Fund Phase III - Accountability
             for Equipment Purchased for the
                Afghanistan National Army
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ANA                           Afghanistan National Army
ARSIC                         Afghanistan Regional Security Integration Command
ASF                           Afghanistan Security Forces
CJ                            Combined Joint
CoreIMS                       Core Inventory Management System
CSTC-A                        Combined Security Transition Command–Afghanistan
IG                            Inspector General
MoD                           Ministry of Defense
RCAC                          Regional Corps Advisory Command
RPAC                          Regional Police Advisory Command
USCENTCOM                     U.S. Central Command
VIN                           Vehicle Identification Number
                              INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE 

                                400 ARMY NAVY DRIVE 

                           ARLINGTON, VIRGINIA 22202-4704 





                                                                       August 12, 2009

MEMORANDUM FOR COMMANDER, U.S. CENTRAL COMMAND
                         COMMANDlNG GENERAL, COMBlNED SECURlTY
                             TRANSITION COMMAND-AFGHANISTAN


SUBJECT: Afghanistan Security Forces Fund Phase III - Accountability for
         Equipment Purchased for the Afghanistan National Army (Report
         No. D-2009-099)



We are providing this repOlt for your information and use. We considered
management conirnents on a draft of this report in preparing the final report.


The comments of the Combined Security Transition Command-Afghanistan
confOlmed to the requirements of DoD Directive 7650.3 and left no unresolved
issues. Therefore, additional comments are not required.


We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905 (DSN 664-8905).




                                         Principal Assistant Inspector General
                                             for Auditing
Report No. D-2009-099 (Project No. D2007-D000LQ-0161.002) 	                            August 12, 2009

               Results in Brief: Afghanistan Security Forces
               Fund Phase III – Accountability for
               Equipment Purchased for the Afghanistan
               National Army
                                                           	 use the Core Inventory Management
What We Did                                                   System as the official system to track
We determined whether the Combined Security                   vehicles and radios issued to the ANA.
Transition Command-Afghanistan (CSTC-A)                    	 enter vehicle identification numbers
could account for equipment purchased with the                (VIN) and serial numbers for radios into
Afghan Security Forces Fund to support the                    the official inventory management
Afghanistan National Army (ANA). We also                      system at the time the equipment is
determined whether CSTC-A properly                            delivered.
transferred accountability for the equipment to            	 issue formal written procedures, in
the ANA.                                                      accordance with DoD guidance, for the
                                                              accountability, control, and physical
What We Found                                                 security of equipment from arrival in
We identified internal control weaknesses in                  country to the point of formal transfer to
CSTC-A’s accounting for vehicles and radios                   the ANA.
provided to the ANA. CSTC-A did not have
complete serialized inventory records of all            Management Comments and
vehicles and radios purchased for the ANA.
Basic inventory controls were not established as
                                                        Our Response
required by DoD guidance, and therefore                 The CSTC-A Deputy Commanding General
CSTC-A could not account for vehicles and               agreed with the audit recommendations and has
radios in storage planned for transfer to the           implemented standard operating procedures to
ANA.                                                    address accountability, custody, and control of
                                                        equipment supplied by the United States to the
In addition, we identified internal control             ANA. We consider CSTC-A’s comments
weaknesses in the transfer of the equipment to          responsive. Please see the recommendations
the ANA. Specifically, CSTC-A lacked a                  table on the back of this page.
formal process to transfer the accountability and
physical control of vehicles and radios to the
ANA in accordance with DoD guidance.

What We Recommend
CSTC-A should:
  	 require a wall-to-wall physical inventory
     of all equipment at ANA Depots 1 and 2
     to establish a reliable baseline in the
     inventory management system.
  	 reconcile radio shipping and receiving
     documentation.
                                                          Vehicles Awaiting Delivery to the ANA at 

                                                                     Depot 2 in Kabul 


                                                    i
Report No. D-2009-099 (Project No. D2007-D000LQ-0161.002)                                 August 12, 2009



Recommendations Table 

Management                                     No Additional Comments Required
Commanding General, Combined Security          A.1., A.2., A.3., A.4., B.1., B.2., B.3.
Transition Command-Afghanistan




                                        ii 

Table of Contents

Results in Brief                                                                i


Introduction                                                                    1


       Objectives                                                               1

       Background                                                               1     

       Review of Internal Controls                                              4

       Guidance on Inventory Controls                                           4


Finding A. Inventory Controls for Vehicles and Radios                           5


       Management Actions                                                       8

       Recommendations, Management Comments, and Our Response                   9


Finding B. Transfer of Accountability and Physical Control of Vehicles and 

Radios                                                                         11


       Management Actions                                                      13 

       Recommendations, Management Comments, and Our Response                  13 


Appendices

       A.   Scope and Methodology                                              15 

       B.   Prior Coverage                                                     17 

       C.   Afghanistan National Army Property Book Records                    18 

       D.   Inventory Control Guidance                                         19


Management Comments

       Combined Security Transition Command-Afghanistan                        20 

Introduction
Objectives
Our objectives for this audit were to determine whether organizations in Southwest Asia
given the responsibility by the U.S. Central Command (USCENTCOM) for managing the
Afghanistan Security Forces (ASF) Fund properly accounted for the goods and services
purchased using ASF Funds and whether the goods and services purchased were properly
delivered to the ASF. See Appendix A for a discussion of the audit scope and
methodology. See Appendix B for prior coverage.

Background
This report is part of a three-phase audit of the ASF Fund. In total, $15.3 billion has been
appropriated to the ASF Fund through six public laws: 109-13, 109-234, 109-289,
110-28, 110-161, and 110-252.1 For this report, we reviewed Combined Security
Transition Command-Afghanistan (CSTC-A) procedures and systems used to account for
equipment purchased for the Afghanistan National Army (ANA) with the ASF Fund.

In the first phase (discussed in DoD Inspector General [IG] Report No. D-2008-012,
“Distribution of Funds and the Validity of Obligations for the Management of the
Afghanistan Security Forces Fund – Phase I,” November 5, 2007), we determined that
DoD distributed $4.7 billion of budget authority appropriated by Public Laws 109-13,
109-234, and 109-289 for the ASF Fund in compliance with provisions of the three
public laws and appropriations law.

In the second phase of our audit (discussed in DoD IG Report No. D-2009-050,
“Distribution of Funds and the Validity of Obligations for the Management of the
Afghanistan Security Forces Fund – Phase II,” February 5, 2009), we determined that six
DoD Commands obligated $1.3 billion in accordance with legal provisions in Public
Laws 109-13, 109-234 and 109-289 to assist the ASF. The second phase was conducted
concurrently with the third phase of our audit.

For phase three, we have issued multiple reports that address the accountability for real
property construction, weapons, vehicles, and communication equipment including
computers provided to support the ASF. This report addresses accountability for ASF-
funded equipment (specifically, vehicles and radios) purchased in support of the ANA.



1
  The six public laws are: Public Law 109-13, “Emergency Supplemental Appropriations Act for Defense,
the Global War on Terror, and Tsunami Relief, 2005”; Public Law 109-234, “Emergency Supplemental
Appropriations Act for Defense, the Global War on Terror, and Hurricane Recovery, 2006”; Public
Law 109-289, “Department of Defense Appropriations Act, 2007”; Public Law 110-28: “U.S. Troop
Readiness, Veterans’ Care, Katrina Recovery, and Iraq Accountability Appropriations Act, 2007”; Public
Law 110-161, “Consolidated Appropriations Act, 2008”; and Public Law 110-252, “Supplemental
Appropriations Act, 2008.”



                                                   1

Afghanistan Security Forces Fund
Public Laws 109-13, 109-234, 109-289, 110-28, 110-161, and 110-252 appropriated
funds for the ASF Fund for “the security forces of Afghanistan including the provision of
equipment, supplies, services, training, facility, and infrastructure repair, renovation, and
construction.”

Combined Security Transition Command-Afghanistan
The CSTC-A mission is, in partnership with the Islamic Republic of Afghanistan and key
partner nations and organizations, to plan, program, and implement force generation that
establishes an enduring and self-sustaining capability in the ASF.

CSTC-A Operational Structure
CSTC-A has grouped its personnel and resources into eight operating divisions.2 The
eight divisions are called “combined joint,” or “CJ,” because several perform their
function using a mix of military personnel from the United States and foreign countries.
Figure 1 depicts the CSTC-A divisions.


                                         CSTC-A Commanding General



                     CJ1 - Personnel                                         CJ5 - Plans


                    CJ2 - Intelligence                                 CJ6 - Communications


                     CJ3 - Operations                             CJ7 – Force Integration & Training


                     CJ4 - Logistics                                CJ8 – Comptroller & Programs


                   CJENG - Engineers

                               Figure 1. CSTC-A Operating Divisions

The Logistics (CJ4) Division is responsible for developing and maintaining DoD
property accountability systems for all vehicles and radios received in Afghanistan
intended for the ANA. The Logistics Division must prepare and retain property
accountability information for all vehicles and radios. It also fields teams of mentors to
teach the ANA how to independently account for, maintain, and secure the vehicles. The
Communications (CJ6) Division provides support in developing communications system
requirements for the ANA throughout Afghanistan. Additionally, it assists the Logistics
Division by fielding teams of mentors to teach the ANA how to account for, maintain,


2
    An additional division (CJENG) provides engineering oversight of real property construction.


                                                      2

and secure radios. To perform their assigned functions, both divisions rely heavily on
contractor personnel. See Appendix C for a discussion of ANA property book records.

ANA Depots 1 and 2
ANA Depot 1 is the receiving and storage location for all class II, IV, VI, and VII
materiel for the ANA.3 ANA Depot 1 stores the radios purchased for the ANA in
addition to many other items. Although ANA Depot 1 is an Afghanistan Ministry of
Defense (MoD) asset, its operations are managed by U.S. Army personnel. ANA
personnel are assigned to work at Depot 1 on a rotational basis only.

ANA Depot 2 is the receiving point for vehicles purchased for the ANA. Like ANA
Depot 1, ANA Depot 2 is an Afghan MoD asset; however, it is staffed by U.S. military
personnel, U.S. contractors, and ANA personnel.

Mentors
CSTC-A military personnel and civilian contractors with MPRI, Inc., an L-3
Communications division, serve as mentors to the ANA and manage operations at ANA
Depots 1 and 2 (see Figure 2). The contractors and military personnel used a
combination of paper and electronic systems to manage the inventory at ANA Depots 1
and 2.




            Figure 2. ANA Depot 1 (left) and ANA Depot 2 Motor Pool (right)

Core Inventory Management System
The U.S. military and contractor personnel operating ANA Depots 1 and 2 used an
automated system known as Core Inventory Management System (or CoreIMS) to
manage the inventory. CoreIMS is a commercial off-the-shelf inventory management
system for small to medium-sized warehouses that was adapted to fit the needs of the
ANA. The system covers purchasing through receiving, managing inventory and orders,
and shipping. CoreIMS allows the user to manage vendor and customer contact
information in one system. The system also allows the user to generate reports that can


3
  DoD 4140.1-R, “DoD Supply Chain Materiel Management Regulation,” May 23, 2003, defines the
following classes of materiel: Class 2 – Clothing, individual equipment, tentage, organizational
tool kits, hand tools, administrative and housekeeping supplies, and equipment; Class 4 – Construction
materials including installed equipment and all fortification or barrier materials; Class 6 – Personal demand
items (nonmilitary sales items); and Class 7 – Major end items.


                                                     3

be customized to deliver useful information to management. MPRI, Inc. personnel at
ANA Depot 1 maintain CoreIMS.

Review of Internal Controls
We determined that internal control weaknesses in CSTC-A property accountability
systems existed as defined by DoD Instruction 5010.40, “Managers’ Internal Control
(MIC) Program Procedures,” January 4, 2006. CSTC-A did not have adequate inventory
controls to account for all vehicles and radios acquired for the ANA. Specifically,
CSTC-A provided inadequate oversight to fully account for each vehicle and radio
purchased with ASF funds and intended for the ANA. In addition, CSTC-A did not have
a formal process to transfer accountability for vehicles and radios to the Afghan
Government. Implementing the recommendations in this report will improve internal
controls and allow the U.S. Government to track the location and status of sensitive
equipment purchased with ASF funds. We will provide a copy of this report to the senior
CSTC-A official responsible for internal controls.

Guidance on Inventory Controls
U.S. law, DoD Instructions, and Army Regulations require all persons entrusted with the
management of Government property to maintain adequate controls and accountability
for property under their control. See Appendix D for the guidance concerning inventory
control.




                                           4

Finding A. Inventory Controls for Vehicles
and Radios
CSTC-A did not have complete property records for vehicles and radios purchased for
the ANA. CSTC-A had not effectively implemented receiving and inventory controls to
ensure accountability for all vehicles and radios purchased for the ANA. As a result,
DoD has no assurance that vehicles and radios purchased for the ANA were received or
that ANA units received the quantity or type of vehicles ordered.

Receiving Controls at ANA Depots 1 and 2
Vehicle Receiving Process
MPRI, Inc. inspected all vehicles upon arrival at ANA Depot 2 for damage and
reconciled the vehicle identification numbers (VINs) to the vehicle shipping documents.
U.S. Military personnel signed for acceptance of the vehicles. Once unloaded, the
vehicles were grouped in the ANA Depot 2 motor pool by type of vehicle. Each
vehicle’s VIN was entered into an unofficial spreadsheet that MPRI, Inc. personnel
maintained; however, the VINs were not entered into the ANA Depot 2 official inventory
management system.

Radio Receiving Process
Radios intended for the ANA were shipped by air into Kabul Afghanistan International
Airport. At the airport, a MoD representative signed for custody of the radios, which
were then transported by truck to ANA Depot 1. (See finding B for a discussion of the
transfer of custody and control of ANA equipment.) According to CSTC-A officials,
when a shipment arrived at ANA Depot 1, Logistics Division personnel and MPRI, Inc.
mentors were present to unload the MoD trucks. ANA Depot 1 staff received the radios
with a packing slip for the entire shipment; however, they did not open the individual
shipping crates on receipt to verify their contents. Therefore, radio quantities on the
packing slip were not checked against the radios actually received or the order and
delivery manifests. CSTC-A did not record radio serial numbers in the ANA Depot 1
inventory management system during the receiving process.

Inventory Controls at ANA Depots 1 and 2
DoD Instruction 5000.64, “Accountability and Management of DoD-Owned Equipment
and Other Accountable Property,” November 2, 2006, requires that an accountable
system of record be established for all purchased property having a unit acquisition cost
of $5,000 or more, or that is sensitive or classified in nature. This system of record must
include unique item identifiers. At the time of our audit, CSTC-A was not accounting for
vehicles and radios intended for the ANA in accordance with DoD guidance. Each
vehicle cost more than $5,000, and the radios were considered sensitive items; therefore,
both required accountable property records.




                                             5

Automated Inventory Management System
CSTC-A and MPRI, Inc. were not tracking unique item identifiers for vehicles and radios
at ANA Depots 1 and 2. CSTC-A used an inventory management system called
CoreIMS but only to track quantities of inventory items, and not to track the items by
unique item identifiers such as a VINs and serial numbers. Instead, VINs were recorded
in spreadsheets not connected to the inventory management system. ANA Depot 1
personnel did not record serial numbers for radios until the radios were allocated and
prepared for issue to the ANA.

Hardcopy Records
CSTC-A did not use CoreIMS to track vehicles and radios issued to the ANA by VIN and
serial number. Instead the staff used a MoD Form 9 issuing document and a MoD
Form 9-14 addendum with a handwritten list of the serial numbers of the equipment
issued. The forms are the official accountability records for vehicles and radios issued
from ANA Depots 1 and 2. Use of the hardcopy documents instead of CoreIMS, was
inefficient and ineffective for tracking and accounting for individual pieces of equipment.
For example, when we asked about the location of specific vehicles and radios, CSTC-A
personnel undertook a long and difficult search through hardcopy documents.
Information regarding the location of equipment issued from ANA Depots 1 and 2 was
not readily available using only hardcopy records.

CSTC-A staff at ANA Depot 1 provided us with a spreadsheet identifying the location of
vehicles and radios issued from Depots 1 and 2. The ANA Depot 1 Property
Accountability Officer, a MPRI Inc. employee, created and maintained the spreadsheet
which he used to address customer service inquiries. However, the document was
provided to us by CSTC-A as a means to locate equipment issued to ANA units
throughout Afghanistan. In testing the reliability of this document, we determined that it
was incomplete and inaccurate. CSTC-A has, therefore, lost accountability for vehicles
and radios.

Inventory Control Weaknesses
CSTC-A had not implemented basic inventory controls according to DoD guidance and
did not obtain reliable information to account for all vehicles and radios using the few
controls in place. Specifically, ANA Depot 1 and 2 staff did not:

        conduct a physical inventory on receipt of vehicles and radios and enter the VINs
         and serial numbers in the inventory management system at the time of receipt,
        forward radio packing lists to the CSTC-A Logistics Division for reconciliation
         with radios received and order manifests, or
        use CoreIMS as the official automated system to track vehicles and radios issued
         to the ANA.


4
  The MoD Form 9-1 is an addendum to the MoD Form 9. The Mod Form 9 is the official ANA hand
receipt Issue/Turn-In form that the ANA uses to record issuing items to units and receiving items turned in
by units. The MoD Form 9-1 lists the serial numbers of the items on the MoD Form 9.


                                                     6

Senior U.S. military mentors at ANA Depots 1 and 2 explained that insufficient staffing
at the depots prevented CSTC-A from implementing standard DoD practices to improve
overall accountability for vehicles and radios. Because of insufficient inventory controls,
CSTC-A could not individually account for vehicles and radios purchased with ASF
funds and given to the ANA.

Inventory Controls at Other Sites
To expand our tests of CSTC-A inventory controls over vehicles and radios, we made site
visits to 14 ANA units in 6 cities. We judgmentally selected these sites because vehicles
and radios purchased with ASF funds were located at these sites. See Appendix A for a
discussion of the sites visited.

From CSTC-A records in Kabul, we selected a judgmental sample of VINs and radio
serial numbers to match with equipment in use at the sites visited (see Figure 3). We
recorded the serial numbers for additional radios found in use at the ANA units and later
reconciled those to CSTC-A records.




                 Figure 3. Auditors Perform VIN and Serial Number 

                            Tests Throughout Afghanistan 


Numerous vehicles and radios were not accounted for in CSTC-A records. For the 14
ANA units (see Table 2 in Appendix A), we tested VINs for 213 vehicles and serial
numbers and locations for 1,034 radios. The following table provides the results of our
inventory control tests.




                                             7

                              Table 1. Accuracy of CSTC-A Records
                                                    Radio 
                   Radios Whose
                                                    Serial 
                 Location Differed
                    VINs          Vehicles Not     Numbers
     Radios Not    From CSTC-A
Province/Unit      Selected         Found          Selected 
     Found          Records
  *Balkh (4)          11                  1           15             15               0
  *Paktia (2)          5                  0         382             164              34
   *Herat (2)         20                 13         265             149              12
 *Kandahar (2)       116                 54         165             137               7
     Kabul            15                  3         108              93               1
  Commando
                      11                11
             6
            0               6
Training School
ANA Air Corps         27                 2
            26
            6               0
   MoD HQ
   Security            8                 0             67           63                1
   Brigade
    Total            213                84         1,034           627               61

*These Province have multiple ANA units located in each.

We found that the hard copy and contractor records relied on by CSTC-A were not
accurate and therefore not reliable for use as official property book records. Specifically,
we could not locate 84 vehicles whose VINs were among the 213 we judgmentally
selected from CSTC-A hardcopy property records; likewise we could not locate 627
radios whose serial numbers were among the 1,034 we selected for testing. In addition,
61 radios were found in locations that differed from those in the spreadsheet maintained
by MPRI Inc. to track equipment issued from ANA Depot 1. The automated contractor
records contained incorrect and incomplete data and should not be relied on to track
issued ANA equipment. See Appendix C for a discussion of ANA property book records.

Conclusion
The few receiving and inventory controls CSTC-A had in place did not ensure individual
accountability for all vehicles and radios purchased with ASF funds and intended for the
ANA. CSTC-A provided inadequate oversight to account for each vehicle and radio. A
significant loss of accountability occurred because property records were inaccurate.
Greater efforts to improve accountability for vehicles and radios from receipt in
Afghanistan through transfer to the ANA will avoid the use of scarce ASF funds for
replacement purchases, minimize loss of sensitive equipment to criminal elements, and
promote the ANA security mission.

Management Actions
In response to a discussion draft of this report, CSTC-A officials informed us of actions
taken or planned to ensure, to improve accountability for vehicles and radios obtained for
the ANA. Specifically, CSTC-A drafted standard operating procedures accountability for
all vehicles and radios transported to Kabul. The command has also requested additional
depot personnel with the right skills to meet the increased distribution requirements for
ASF. Finally, the CSTC-A Logistics Division completed a 100-percent wall-to-wall


                                                  8

inventory and reconciliation of the radios and vehicles at Depots 1 and 2 in March 2009
and entered inventory data into CoreIMS.

Recommendations, Management Comments, and Our
Response
A. We recommend that the Commanding General, Combined Security Transition
Command-Afghanistan:

   1.	 Require a 100-percent wall-to-wall physical inventory of all vehicles and
       radios at Depots 1 and 2 to establish a reliable baseline in the inventory
       management system, and record the vehicle identification numbers and radio
       serial numbers in the inventory management system.

CSTC-A Comments
The CSTC-A Deputy Commanding General agreed and stated that a 100-percent wall-to-
wall inventory and reconciliation of radios and vehicles at Depot 1 and 2 was completed
in March 2009. The results of the inventory were recorded in the inventory management
system. According to the CSTC-A Deputy Commanding General, inspections and
inventory for all U.S.-contracted communications equipment and supplies are conducted
on receipt at the destination in accordance with FAR 12.402 and 46.501 through 503.

Our Response
As a result of management comments, we revised draft Recommendation A.2 to identify
who should maintain documentation for records. We consider the CSTC-A comments
responsive, and no additional comments are required.

   2.	 Require U.S. military personnel at Depot 1 to forward each radio packing list
       to the Combined Security Transition Command-Afghanistan Logistics
       Division for reconciliation with the radio shipping and receiving
       documentation. After reconciliation, a copy should be provided to the
       Communications Division for records.

CSTC-A Comments
The CSTC-A Deputy Commanding General agreed and made a modification to Depot 1
standard operating procedures to incorporate signatures by U.S. personnel on DD Forms
250 for radios upon delivery. In addition, acceptance inspections and inventory for all
U.S.-contracted communications equipment and supplies are conducted on receipt at the
destination. U.S. military members record the type of equipment, quantity, storage
location, and serial number in the inventory management system. Packing lists are
forwarded to the CSTC-A Security Cooperation Program in coordination with the CSTC-
A Communications Division for reconciliation with the Foreign Military Sales shipping
and receiving documentation.




                                           9

Our Response
We consider the CSTC-A comments responsive, and meets the intent of the
recommendation.

   3. Designate CoreIMS as the official system for tracking vehicles and radios
      issued to the Afghanistan National Army and enforce the system’s use.

CSTC-A Comments
The CSTC-A Deputy Commanding General agreed and stated that CoreIMS is being
used to track vehicles and radios at ANA Depot 1 and Depot 2. An enhanced CoreIMS is
being implemented to improve functionality and accountability. Currently, classroom
instruction is being conducted for both ANA and U.S. personnel on use of the upgraded
system. In addition, CSTC-A provided additional comments to ensure the
recommendation did not limit their use to a particular brand of software.


Our Response
We consider the CSTC-A comments responsive, and no additional comments are
required.

   4.	 Implement standard operating procedures for verifying and recording
       vehicle identification numbers and radio serial numbers in the inventory
       management system at the time of receipt.

CSTC-A Comments
The CSTC-A Deputy Commanding General agreed and stated that current procedures, as
outlined in the ANA Depot 2 standard operating procedures, require input of all vehicle
identification and radio serial numbers into the inventory management system on receipt.

Our Response
We consider the CSTC-A comments responsive, and no additional comments are
required.




                                           10 

Finding B. Transfer of Accountability and
Physical Control of Vehicles and Radios
CSTC-A did not transfer the accountability and physical control of vehicles and radios in
accordance with DoD guidance. CSTC-A had not established a formal process for
transferring equipment to the ANA, nor defined the specific point at which the U.S.
Government is formally relieved of accountability for, control over, and physical security
of vehicles and radios provided to the ANA. As a result, DoD cannot be certain that
equipment leaving the physical control of the United States prior to official turnover is
received at ANA Depots 1 and 2 in the quantities or condition ordered. In addition,
without formal transfer of custody and accountability, it is unclear whether CSTC-A is
responsible for maintaining accountability and control for the equipment after its
acceptance by the ANA.

Chain of Custody
DoD Instruction 5000.64 states that the current status and location of all sensitive items
must be accounted for at all times. The U.S. Transportation Command is responsible for
managing the movement of vehicles from origin to CSTC-A reception points in Kabul
through the Defense Transportation System. ANA vehicles are delivered to ANA
Depot 2 and signed for by U.S. military personnel. The U.S. Government maintains a
chain of custody for vehicles purchased for the ANA. However, CSTC-A has not
implemented procedures to maintain physical control and track the current status of
radios from receipt at Kabul Afghanistan International Airport through transfer to the
ANA.

The U.S. Government ships radios by air to Kabul Afghanistan International Airport for
transfer to the ANA. CSTC-A and the Central Movement Agency, a component of the
MoD Logistics Command, receive the radios at the airport. A Central Movement Agency
representative signs for custody of the shipment on a CSTC-A “Accountability Transfer
Form.” Both CSTC-A and Central Movement Agency representatives sign the form, but
the only shipment information documented on the form is the total number of pallets
received. The pallets are then transported by the Central Movement Agency to ANA
Depot 1 (see Figure 4). Once the transport process begins, the U.S. Government custody
and control over the radios has been broken.




        Figure 4. Afghanistan MoD Central Movement Agency Trucks Deliver 

          Equipment to ANA Depot 1 for Receipt by U.S. Military Personnel 



                                            11 

The chain of custody was broken because the radios were delivered to an MoD entity for
transport to ANA Depot 1 without being inventoried by serial number or having a
responsible authority sign an official transfer document identifying each radio by serial
number. Since no inventory was completed during any phase of this process, the
equipment may not have arrived at ANA Depot 1 in the same quantities and condition
that it left the airport.

Official transfer documents would have provided a record of an unbroken chain of
custody and a means of tracking by serial number each piece of equipment transferred to
the ANA. Figure 5 illustrates the break in custody and control from receipt at the airport
to issue at ANA Depot 1.




      Figure 5. Shipment of Radios from the KAIA Through Issue to the ANA

Transfer of Accountability
CSTC-A did not record vehicle VINs or radio serial numbers in the ANA Depots 1 and 2
inventory management system. In addition, U.S. Government representatives and
accountable ANA officers did not sign official documents to maintain a record of
equipment transferred to ANA. Such documents should have been prepared to verify that
formal transfer had occurred between the two governments. At no time throughout the
receipt, storage, and issue processes at ANA Depots 1 and 2 were documents signed by
U.S. Government and Afghanistan Government representatives that would have served
this purpose. Such documents, when prepared, should contain sufficient detail, such as



                                            12 

the make, model, and serial number for each piece of equipment, to provide a record of
an unbroken chain of custody and a complete record for each vehicle or radio transferred.

Conclusion
DoD cannot be certain that vehicles and radios leaving the physical control of the United
States prior to their official turnover to the ANA were received at ANA Depots 1 and 2 in
the quantities or condition ordered. Without maintaining custody and control during
shipment, large quantities of equipment could be diverted to locations other than ANA
Depots 1 or 2 without DoD knowledge. Ultimately, the U.S. Government cannot be
certain who has possession of the goods shipped or how they are being used.

In addition, without formal transfer of custody and accountability, it is unclear whether
CSTC-A is responsible for maintaining accountability and control for the equipment after
acceptance by the ANA. Because DoD guidance was not followed for the transfer of
sensitive items, the accountability, control, and physical security of ANA vehicles and
radios were not properly managed. Accountable ANA officers and U.S. Government
representatives must establish the point at which ANA assumes formal accountability for
and control over the transferred equipment and the U.S. Government is relieved of that
responsibility.

Management Actions
In response to a discussion draft of this report, CSTC-A has issued standard operating
procedures for the ANA Depots, which cover the receipt, storage, and issue of
equipment.

Recommendations, Management Comments, and Our
Response
B. We recommend that the Commanding General, Combined Security Transition
Command-Afghanistan, with advice and assistance from the Ministry of Defense:

   1.	 Issue formal written procedures, in accordance with DoD Instruction
       5000.64, “Accountability and Management of DoD-Owned Equipment and
       Other Accountable Property,” November 2, 2006, for the accountability,
       control, and physical security of equipment, including an unbroken chain of
       custody from the point of entry to the point of formal transfer to the
       Afghanistan National Army.

CSTC-A Comments
The CSTC-A Deputy Commanding General agreed and stated that CSTC-A published
Standard Operating Procedures dated February 26, 2009, for all of the ANSF [Afghan
National Security Forces] National Depots, covering the receipt, storage, and issue of
equipment. Additionally, the Section 1228 weapons and property accountability division
was created in order to monitor all defense articles and track all requirements from
generation to delivery to the ASF. The Deputy Commanding General stated that the
division will be modeled after the FY08 National Defense Authorization Act section


                                           13 

1228 group implemented in Iraq. End-use monitoring is also being conducted in
accordance with established instructions.

Our Response
We consider the CSTC-A comments responsive, and no additional comments are
required.

    2.	 Establish where and when the specific point of formal transfer of equipment
        to the Afghanistan National Army takes place.

CSTC-A Comments
The CSTC-A Deputy Commanding General agreed and stated that CSTC-A published
Standard Operating Procedures dated February 26, 2009, for all of the ANSF [Afghan
National Security Forces] National Depots. The standard operating procedures state that
the formal transfer to the ANSF occurs on signing of Ministry of Defense Form 9 at the
[ANA] depot.

Our Response
We consider the CSTC-A comments responsive, and no additional comments are
required.

    3.	 Develop a long-term plan of action resulting in Afghanistan National Army
        management of operations at Afghanistan National Army Depots 1 and 2.

CSTC-A Comments
The CSTC-A Deputy Commanding General agreed and stated that Depot 0, the new
Afghan National Supply Depot, is scheduled to be managed by ANA personnel and
mentored by the United States. ANA Depot 0 will receive, store, and issue Class II
materials as early as August 2009. ANA personnel are being trained on the inventory
management system and forklift driving. The CSTC-A Deputy Commanding General
also stated that Depot 1 operations will remain primarily under control of the U.S. until
completion of force generation, and that Depot 2 is currently manned with 13 ANA
soldiers and 10 U.S. mentors. The ANA soldiers receive, manage and issue all assets
coming into the Depot. As CSTC-A completes force generation, the ANA will take on
all aspects of Depot 2 management with minimal mentoring.

Our Response
We consider the CSTC-A comments responsive, and no additional comments are
required.

Recommendations in a prior DoD Inspector General report to improve ASF Fund policies
and procedures that CSTC-A is implementing are not repeated in this report.5
5
 Recommendations for ANA Depot 1 were made in the final DoD Office of the Inspector General Report,
“Afghanistan Security Forces Fund Phase III – Accountability for Weapons Distributed to the Afghanistan
National Army” (Report No. D2009-075).


                                                  14 

Appendix A. Scope and Methodology
We conducted Phase III of this performance audit in Afghanistan and the United States
from January 2008 through May 2009 in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

In February 2008, we visited the U.S. Army Tank-Automotive Command Life Cycle
Management Command in Warren, Michigan, to gain an understanding of the processes
used to obtain vehicles procured with ASF funds obligated under Public Laws 109-13,
109-234, 109-289, 110-28, 110-161, and 110-252 as well as to obtain documentation of
vehicles shipped to Afghanistan. During February 2008, we contacted officials at the
Communications-Electronics Command in Fort Monmouth, New Jersey, to understand
the processes and contracts used to obtain radios with ASF funds.

We reviewed the accountability for ASF-funded equipment procured in support of the
ANA, as directed by Public Laws 109-13, 109-234, 109-289, 110-28, 110-161, and
110-252. We reviewed DoD Instructions, DoD Directives, and DoD Manuals providing
guidance on accountability for equipment. We also reviewed Army guidance related to
accountability procedures. Finally, we reviewed a CSTC-A Operations Order dated
January 14, 2008, and the CSTC-A Campaign Plan dated May 7, 2007.

In Afghanistan, we conducted fieldwork related to ANA equipment accountability from
February 25, 2008, through June 25, 2008. We made site visits to ANA units in Kabul,
Balkh, Herat, Kandahar, and Paktia provinces (see the following table). We judgmentally
selected and visited 14 ANA units in safe areas that possessed ASF-funded equipment.
We also visited ANA Depots 1 and 2 in Kabul, Afghanistan.

We visited the ANA units listed in the following table and performed tests of property
accountability for the vehicles and radios provided to them by the U.S. Government.




                                           15 

                                  Table 2. ANA Units Visited
                  ANA Unit                     City        Province       Date
    MoD Air Corps, Mission Support
                                              Kabul         Kabul     April 28, 2008
    Group
    Task Force Morehead-ANA
                                              Kabul         Kabul     April 29, 2008
    Commando School
    209th Corps:
             5th Kandak,* 1st Brigade
             4th Kandak, 1st Brigade      Mazar-e-Sharif    Balkh     May 2, 2008
             1st Kandak, 1st Brigade
             Corps Garrison
       rd
    203 Corps:
             5th Kandak, 3rd Brigade          Gardez        Paktia    May 8, 2008
             4th Kandak, 2nd Brigade
    205th Corps:
             4th Kandak, 1st Brigade       Kandahar City   Kandahar   May 18, 2008
             Commando Kandak
    207th Corps:
             5th Kandak, 1st Brigade           Herat        Herat     May 22, 2008
             Commando Kandak
    201st Corps, 3rd Brigade Garrison      Pol-e-Charki     Kabul     May 31, 2008
    MoD Support Activity, Headquarters
                                              Kabul         Kabul     June 3, 2008
    Security Brigade
   *A kandak is a battalion.

We performed physical inventory checks of sampled items at the ANA units that we
visited and collected serial numbers of items at ANA units to be checked against
CSTC-A records. We judgmentally selected 21 MoD Form 9 issuing documents
containing both vehicles and radios issued to the ANA from the local depots. We also
selected additional radios from the unofficial tracking spreadsheet maintained by MPRI,
Inc. at ANA Depot 1. During our visits to the 14 selected ANA units, we attempted to
locate all of the vehicles and radios judgmentally selected. We also collected a number
of sample items in the field by collecting serial numbers of radios in use at the ANA units
visited. We then checked those serial numbers against CSTC-A radio distribution
records to verify that CSTC-A had a record of the radios distributed. In addition, we
interviewed U.S. Government and contractor officials regarding standard operating
procedures for accountability and equipment turnover.

Use of Computer-Processed Data
We used Excel spreadsheets created by CSTC-A to test CSTC-A accountability for
vehicles and radios intended for the ANA. We tested the reliability of the data by
collecting VINs and serial numbers of vehicles and radios located at ANA units and
reconciling the numbers to information in CSTC-A data. We found that the spreadsheet
data were inaccurate: numerous vehicles and radios found at ANA units were not
included in CSTC-A records.




                                              16 

Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the DoD IG
have issued 10 reports discussing accountability for goods and services provided to the
ASF. Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-08-661, “Afghanistan Security: Further Congressional Action
May Be Needed to Ensure Completion of a Detailed Plan to Develop and Sustain
Capable Afghan National Security Forces,” June 2008

GAO Report No. GAO-07-711, “Stabilizing Iraq: DoD Cannot Ensure That U.S.-Funded
Equipment Has Reached Iraqi Security Forces,” July 2007

GAO Report No. GAO-07-582T, “Operation Iraqi Freedom: Preliminary Observations on
Iraqi Security Forces’ Logistical Capabilities,” March 2007

GAO Report No. GAO-07-308SP, “Securing, Stabilizing, and Rebuilding Iraq: Key
Issues for Congressional Oversight,” January 2007

GAO Report No. GAO-05-575, “Afghanistan Security: Efforts to Establish Army and
Police Have Made Progress, but Future Plans Need to Be Better Defined,” June 2005

DoD IG
DoD IG Report No. D-2009-050, “Distribution of Funds and the Validity of Obligations
for the Management of the Afghanistan Security Forces Fund Phase II,” February 5, 2009

DoD IG Report No. D-2009-031, “Afghanistan Security Forces Fund Phase III-Air Force
Real Property Accountability,” December 29, 2008

DoD IG Report No. D-2008-026, “Management of the Iraq Security Forces Fund in
Southwest Asia - Phase III,” November 30, 2007

DoD IG Report No. D-2008-012, “Distribution of Funds and the Validity of Obligations
for the Management of the Afghanistan Security Forces Fund-Phase I,” November 5,
2007

DoD IG Report No. IE-2007-001, “Interagency Assessment of Afghanistan Police
Training and Readiness,” November 2006*




*
    The Inspectors General of the Department of State and Department of Defense conducted this assessment.


                                                     17 

Appendix C. Afghanistan National Army
Property Book Records
The ANA did not keep accurate accountable records of sensitive property that the
U.S. Government provided. The ANA comprises five corps, the 201st Corps based in
Kabul; 203rd Corps in Gardez; 205th Corps in Kandahar; 207th Corps in Herat and the
209th Corps in Mazar-e-Sharif. Attached to each corps is an Afghanistan Regional
Security Integration Command (ARSIC). Five ARSICs – north, south, east, central, and
west –support the mission of CSTC–A, which is to plan, program, and implement
structural, organizational, institutional, and management reforms of the ANSF to develop
a stable Afghanistan, strengthen the rule of law, and deter and defeat terrorism within the
country’s borders.

Each ARSIC is made up of a Regional Police Advisory Command (RPAC) and a
Regional Corps Advisory Command (RCAC). The RPAC is responsible for training,
coaching, and mentoring all organizations of the ANP; the RCAC has the same function
for the ANA corps.

The training being provided to the ANA on property books was insufficient to account
for sensitive property that the U.S. Government has provided. Only the 201st
and the 207th (two of the five ANA Corps) established property books at their kandaks
(battalions) in accordance with the ANA policy that CSTC-A helped established. The
ANA will not become a self-sustaining force without accurate property records.




                                            18 

Appendix D. Inventory Control Guidance
Section 524, Title 40, United States Code
Section 524, title 40, United States Code, (40 U.S.C. 524) requires that each executive
agency “maintain adequate inventory controls and accountability systems for property
under its control.”

DoD Guidance
DoD Instruction 5000.64, “Accountability and Management of DoD-Owned
Equipment and Other Accountable Property,” November 2, 2006, establishes policy
and procedures to comply with 40 U.S.C. 524. It states that all persons entrusted with
the management of Government property shall possess and continually demonstrate an
appropriate level of competence and proficiency in property accountability and
management. In addition:

               Accountable property records shall be established for all property
               purchased, or otherwise obtained, having a unit acquisition cost of
               $5,000 or more; leased assets of any value; and assets that are sensitive
               or classified. Property records will be kept current and shall provide a
               complete trail of all transactions, suitable for audit.

Also, “accountable property records shall reflect current status and location … until the
Component is otherwise formally relieved of accountability by authorized means.”
Finally, this instruction provides guidance on the minimum data elements required of an
accountable system of record including name, part number and description, model
number, National Stock Number, and unique item identifier.

DoD 4100.39-M, “Federal Logistics Information System,” volume 10, table 61,
October 2008, defines vehicular and communication equipment as items that have a
ready resale value or civilian application for personal possession and, therefore, are
especially subject to theft.




                                                 19 

Combined Security Transition Command-Afghanistan
Comments




                                  DEPARTMENT OF DEFENSE
                    COMBINED SECURlTY TRA."'iSmON COM.I'fIAND - AFGliANlST AN
                               OPERATION ENDURING FREEDOM
                                          KABUL, AFGHANISTAN
                                                APOAE093S6



     CSTC-A-DCG                                                                             15 June 2009


     MEMOR.AJIDUM THRU United States Central Command, A1TN: CCIG, MacDill .<\FB, FL
     33621

     FOR United States Department of Defense lnspector General for Auditing, Joint and Overseas
     Operatiop.s,4OO Army Navy Drive, Arlin,,"1On, Virginia 22202-4704

     SUBJECT: CSTC-A Response to the Department of Defense Inspector General


     I. Reference: Repon on "Afglnmisnm Security Forces Fund Phase 1Jl- Accountability fOT
     Equipment Purchased fOT the Afglnmisnm Nztional fumy," (DODIG Project No. D2007-
     DOOOLQ-0161.002).

     2. The purpose of this memorandum is to respond to the recommendation listed in the referenced
     repon. The Command has enclosed response which reflects significant effons to addPess the
                                     Click to add JPEG file
     shortcomings noted in the report.

     3. In the future, please include with each draft and final repon, a statement regarding the datc(s)
     the auditlassessment was conducted. This information will present a complete and transparent
     context for the report findings. We suggest this inf01"JD2tion be in a highly visible location, such
     as in the report's cover letter or in the '''Results in BrieF section.

     4.




     Encl
                                                       Brigadier General, U.S. AImy
                                                       Deputy Commanding General




                                                                    20
DODIG Project No. D2007-DOOOLQ-1l161.002                                            15 June 2009
18 May 2009

                                  DODIG DRAFT REPORT

                     "Mghanistan 5eauitJ' F on:es Fund, Phase III -
      Accountabllify Cor Equipment Pnrchased for tbe Mgltanistan National Anny"


                                  CSTC-A COMMENTS
                                 TO THE DRAFT REPORT


RECOMMENDATION A.1.
DODIG recommends that the Commanding General., Combined Security Trnnsition Command-
Afghonistan require a 10000pen:ent wall-to-wall physical inventory of all vehicles and radios at
Depots 1 and 2 to establish a reliable baseline in the inventory management system, and record
the vehicle identification numbers and radio serial numbers in th.: inventory management system.
(DODIG Draft, page 9)

CSTC-A RESPONSE TO RECOMMENDATION A.J: CSTC-A concurs with information
provided in this DODIG Report and is in compliance. In March 2009 a 100 pen:ent wall·to-wall
inventory and reconciliatioo of radios and vehicles at Depot I and 2 was completed and the data
recorded into warehouse management S)'SIem (CoceIMS). Additionally, upon receipt and in
                               Click to add JPEG file
accordance with FAR 12.402 and 46.501 tbroogh 503, acceptance inspections and inventory for
all US contracted communications equipment and supplies are conducted at destination (Depot
1) which includes annotation of type, quantity~ storage locatio~ and serial number,. information
is recorded by U.S. military members and input into CoreIMS.


RECOMMENDATION A.2.
DODIG recommends that the Commanding General., Combined Security Transition Command-
Afghanistan require U.S. military personnel aI Depot 1 to forward each radio packing list to the
Combined Security Transition Command..>\fgbanist:m Logistics Division for reconciliation with
the radio shipping and receiving documeotation. (DODIG Draft, page 9)

CSTC-A RESPONSE TO RECOMMENDATION A.2.: CSTC-A concurs with information
provided in this DODIG Report and is in compliaoce. DO Form 250' s for radios are signed by
U.S persormel upon delivery to Depot 1; a modification to the Depot 1 SOP to incorporate this
process cbange is being staffed. In addition, upon receipt aod in acconlance with FAR 12.402
and 46.501 through 503, acceptance inspections and inventory fOT all US cootracled
commWlications equipment and supplies are conducted at destination (Depot 1) which includes
armotation of type, quaotity, storage location, and serial number; information is Tecorded by U.S.
military mom""'" and input into CoreIMS. Packing lists are forwarded to tbe CSTC-A Security
Cooperation Program in coordination with CSTC-A CJ6 for reconciliation with tbe Foreign
Military Sales communications equipment/supplies shipping and receiving documentation. (See
encl. 1, Depot I SOP)




                                                            21
                                                                                                             Final Report 

                                                                                                              Reference




DODiG Project No. D2007-DOOOLQ-0161.002                                               15 June 2009
18 May 2009

CSTC-A GENERAL COMMENTS ON RECOMMENDATION A.2.:
(U) Page 9. Recommendation A.2 staI<S: "Require U.S. military perwnnel at Depot I to
forward each radio packing list to the Combined Serurity Transition Command-Afghanistan
Logistics Division for reconciliation with the radio shipping and receiving documentation."

Recommend wording cbange to include:     U   After reconciliation,. a copy should be provided to the
CommWlicatioos Division for records."                                                                      Added


RECOMMENDATION A.3.
DODlG reconnnends that the Commanding General, Combined Security Transition Connnand-                      page 10
Afghanistan designate Cor-eIMS as the official system for tracking vehicles and radios issued to
the Afghanistan National AnDy and enfom: the system's use. (DODIG Draft, page 9)

CSTC-A RESPONSE TO RECOMMENDATION A..3.: CSTC-A concurs with information
provided in this OODIG Report and is cu.rrcnUy in compliance. CorelMS is currently being
used as the stock record accotml for ANA and is used to track vehicles and radios at ANA Depot
1 and Depot 2. The enhanced Cot-eTh(S system is currently being implemented to improve
functionality and accountability as identified in tho April 2008 DODIG audit. Currently
classroom instructions are being conducted for both ANA and U.S. persomel 00 use of the
upgraded sysrem.
                             Click to add JPEG file
CSTC-A GENERAL COMMENTS ON RECOMMENDATION A..3.:
(U) Page 9. Recommendation A.3. staI<S: "Designate CoreIMS as the official system for                      page 10
tracking vehicles and radios issued to the .I\fgbanistan National Anny and enforce the system's
use. ~

Recommends change teXl to read, "Designate an official vendoc-<:onfigured, COTS-based,
automated enterprise asset management system to proactiyely manage assets, asset information
(to inelnde property book information, current location. and disposition) as well as maintenance
activities for ve hicl~ radios and other valued commodities issued to the Afghan National Army;
train USetS and enforce the system·s use."


RECOMMENDATION A.4.
DODIG recommends that the Commanding General, Combined Security Transition Command-                        page 10
Afghanistan implement standand operating procedures for verifying and recording vebicle
identification numbers and radio serial numbers in the inventory management system at the time
of receipt. (DODIG Draft, page 9)

CSTC-A RESPONSE TO RECOMMENDATION A.4.: CSTC-A coneurs with infonn3lion
provided in this DODlG Report and is currently in compliance. Current procedures as outlined
in Depot 2 SOP requir~ input of all vehicle identification and radio serial numbers into the
AN SF inventory management syst.."111 (CoreIMS) upon receipt. (See encl 2, Depot 2 SOP)




                                                                                                       2




                                                              22
                                                                                                       Final Report 

                                                                                                        Reference



DODiG Project No. D2007-DOOOLQ-0161_002                                           15 June 2009
18 May 2009

RECOMMENDATION B.I.
DODIG recommends thai the Commanding General, Combined Security Transition Command-
Afghanistan, with advice and assistance from the Ministry of Defense. issue formal written
                                                                                                     page 13
procedures. in accordance with DoD guidance, forihe accountability, cODtrol. and physical
security of equipment, including an unbroken chain of custody from the point of entry to the
point offonnal transferto the Afghanistan National Army. (DODIG Draft. page 12)

CSTC-A RESPONSE TO RECOMMENDATION B.l_, CSTC-A concurs with infonnation
provided in this DODIG Report and is currently in compliance. CSTC-A published Standing
Operating Procedures dated for all of the ANSF National Depots, which coven the receipt,
storage and issue of equipment.. Additionally. the Section 1228 weapons and property
accountability division stood up to monitor small ~ all defense articles and tracking of all
requirements from generation to delivery to the ANSF. This 'will model the FY08 National
Defense Authorization Act Section 1228 implemented in Iraq. End use monitoring is also being
conducted in accordance with established instructiODS. (See eocL 3, weapons accountability SOP
and encl. 4. 1228 Brief)


RECOMMENDATION Bol.
OODIG recommends that the Commanding Genernl. Combined Security Transition Conunand-
                                                                                                     page 14
Afghani!.1an~ with advice and assistance from the Ministry ofDefense~ establish where and when
the specific point offormal transfer of equipment to the Afghanistan National Army takes place.
(DODIG Draft. page 12)       Click to add JPEG file
~~~~~~~~~~~~~~~~~~~'~CS~'TC-Aconcurs
p
                                        with information
                              CSTC-A publisbed Standard
                             26 Feb 09, for all of the     National Depots, which states that
the       point of transfer to the ANSF is upon signing of~finistry of Defense Form 9 at the
Depot. (See encl. I. Depot I SOP)


RECOMMENDATION B3.
DODIG recommends that the Commanding General, Combined Security Tnmsition Command-
Afghanistan. with advice and assistance from th~ Ministry of Defense. d~velop a long-tcnn plan
                                                                                                     page 14
of action resulting in Afghanistan National Army management of operations at ..6Jghanistan
National Army Depots I and 2. (DODIG Draft. page 12)

CSTC-A RESPONSE TO RECOMMENDATION B3., CSTC-A concurs witb infnnnalion
provided in this DODIG Report and is cwrendy in compliance. Depot 0, the National Supply
Depot is scheduled to be managed by ANAper.;onncl and mentored by the U.S. DepolO will
conduct receipt, storage and issue of Class n materials as early as August 2009. Currently ANA
personnel are being trained on the stock record automated system, CORE [MS. and forklift
drivin~

Depot 1 operations wiD remain primarily tmder control of the U.S. until completion of force
generation.


                                                                                                 3




                                                           23
OODIC Project No. D2007-DOOOLQ-0161.002                                      15 June 2009
18 May 2009


Depot 2 is currently manned with 13 ANA soldiers and 10 U.S. mentors. The ANA receive,
manage and issue all assets coming into the DepoL As CSTC-A completes force generati~
ANA will take on all aspects of Depot 2 management with minimal mentoring.




                           Click to add JPEG file




                                                                                         4




                                                      24
